November 27, 2013


The Honorable Chuck T. Hagel
 Secretary of Defense

General Lloyd J. Austin III
 Commander, U.S. Central Command

General Joseph F. Dunford, Jr.
 Commander, U.S. Forces – Afghanistan, and
 Commander, International Security Assistance Force


Dear Secretary Hagel, General Austin, and General Dunford:

In my letter dated July 8, 2013, I requested information about the unoccupied 64,000 square
foot building at Camp Leatherneck originally intended to serve as a command headquarters in
support of the troop surge in Helmand Province. Nearly five months later, I have yet to receive
a formal response to my questions.

Following delivery of my July letter, I was advised that an investigation into the facts and
circumstances surrounding construction of the building was ongoing, and upon its completion
answers to my questions would be forthcoming. Accordingly, I delayed my investigation of this
matter assuming a speedy and fulsome review by your staff.

While I still have not received a response to the questions posed in my July letter, I have
received the results of your most recent Army Regulation (AR) 15-6 investigation of the 64,000
square foot building, signed by Major General James M. Richardson, Deputy Commander-
Support, U.S. Forces-Afghanistan (USFOR-A). Unfortunately, Gen. Richardson’s report raises
additional questions, and has prompted my decision to restart SIGAR’s investigation.

Gen. Richardson’s report does not respond to my initial inquiry, nor does it fully address the
issues associated with the 64,000 square foot building. On November 14, 2013, DOD’s Director
of Congressional Investigations emailed a partial copy of Gen. Richardson’s report to my staff.
This copy does not include the numerous exhibits and enclosures referenced in the report, lacks
transparency, contains a number of unsupported statements, and fails to adequately explain its
key findings and recommendations. Frankly, this does not instill confidence that a thorough
and candid review was conducted of this matter.
In addition, Gen. Richardson’s report fails to address the underlying conditions that resulted in
the construction of this $36 million 1 building that apparently no one wanted or needed.
Without identifying and correcting these deficiencies it is almost certain that similar wastes of
taxpayer dollars will occur.

My concerns are magnified by the Army’s conflicting reports on this building. The Army’s first
AR 15-6 investigation (in May 2013) found that the building was neither wanted or needed, and
suggested that it could be converted to a gymnasium and movie theatre so that it would not be
a total loss. Now, only six months later, Gen. Richardson’s new AR 15-6 investigation finds that
it was needed after all, and recommends that more money be spent to complete the building
and that someone should be ordered to “occupy and use [it] for its original purpose.”

Under the circumstances, I am troubled by the recommendation that the U.S. taxpayer invest
additional money to complete this building when there is a lack of clarity on the future status of
Camp Leatherneck as U.S. troop withdrawals continue. If Camp Leatherneck were to close, the
nearest enduring support base is likely to be Kandahar Airfield, more than 115 miles away.

Gen. Richardson’s findings and recommendations raise new, additional questions, including:

     •    Will Camp Leatherneck remain an enduring location, as the original planning documents
          cited in this investigation suggest? Will the future footprint of this installation leave the
          unoccupied headquarters building inside or outside Camp Leatherneck? Will the
          building be transferred to the Afghan Government? If so, has this transfer been
          coordinated with the Afghan Government?

     •    What cost analyses and feasibility studies were performed on the unoccupied 64,000
          square foot building that led to Gen. Richardson’s recommendation to complete and
          occupy it? Were future operating and maintenance costs considered? Will there be any
          additional costs created by units vacating currently occupied facilities and relocating to
          this building? If so, what are those costs?

     •    Gen. Richardson found that there was no act or omission, dereliction of duty, or any
          other violation of law or regulation involved in the decision by Major General Peter M.
          Vangjel, who was then the Deputy Commanding General of U.S. Army Central Command
          (ARCENT), 2 to spend $25 million to construct the 64,000 square foot building. Gen.
          Vangjel overruled the recommendations of the Deputy Commander of USFOR-A and the
          Commanding General of the Marine Expeditionary Force at Camp Leatherneck, who
          both requested that the building be cancelled prior to its construction. Moreover,

1
  Gen. Richardson’s AR 15-6 investigation report states that as of April 25, 2013, the total cost of the building had risen to
$25.08M, at 98 percent complete. The higher SIGAR estimate is based on our review of the contract documents and our
identification of items that we believe should be included in the total construction cost, such as the road to the building, the
fencing around the building, and communications equipment for the building.
2
Major General Vangjel’s name was not contained in the AR 15-6 report – only his position was given.




                                                                                                                            Page 2
       according to Gen. Richardson’s report, Gen. Vangjel believed it was more efficient to
       cancel a proposed request for a 30,000 square foot building at Camp Leatherneck,
       rather than to cancel the 64,000 square foot building, since the larger building had
       already been funded. It was noted that it would be easier to reduce the size of the
       already-funded 64,000 square foot building than to start over on a new approval
       process for a smaller building. However, in the end, this wasn’t done. Why wasn’t the
       size of the 64,000 square foot building reduced prior to construction beginning? What
       procedural steps led to this failure of execution? Why was this issue not specifically
       addressed by Gen. Richardson’s AR 15-6 investigation?

To address these issues as well as the concerns raised in my July letter, I am reinstituting
SIGAR’s investigation of the decisions that led to the construction of this 64,000 square foot
building. I believe there are important lessons we can learn from this potential waste of nearly
$36 million in taxpayer funds, to make sure we do not continue to construct buildings that no
one will use. We must also ensure that USFOR-A truly needs this facility before spending any
additional money on a building that may never be used.

To aid our investigation, please take immediate action to retain and preserve all records,
including documents, information, and data stored electronically or otherwise, related to issues
surrounding the planning and construction of this building, as well as all records related to the
May 2013 AR 15-6 investigation and the AR 15-6 investigation conducted by General
Richardson. I also request that you direct all DOD active duty, civilian, and contractor
employees not to delete or alter any such records. This request includes all pre-decisional
material and applies to both on- and off-site computer systems and removable electronic
media.

Please promptly provide copies of these materials, in addition to your formal responses to my
July letter, so that my staff may analyze them in conjunction with our investigation. While I
understand it may take some time to fully respond to this request, in the interim please provide
within 10 days from the date of this letter copies of all exhibits and enclosures referenced in the
first AR 15-6 investigation (dated May 20, 2013) and Gen. Richardson’s recent AR 15-6
investigation (undated, but delivered to SIGAR Nov. 14, 2013).

I look forward to your prompt response and continued cooperation.

                                                            Sincerely,



                                                            John F. Sopko
                                                            Special Inspector General
                                                             for Afghanistan Reconstruction


Enclosure:     Timeline for 64,000 Square Foot Building At Camp Leatherneck
                                                                                             Page 3
ENCLOSURE                            DECEMBER 2009: U.S, Central Command requeSlS funding for 64,000 sq. ft. building In FY10 Supplemental.
64,000 SQUARE FOOT BUilDING   2010
AT CAMP LEATHERNECK



                                     APRIL 2010: Maj. Gen. Mi.lls assumes comma1d of Camp leatherneck.

                                     MAY 2010: Maj. Gen. Mills requests cancellatiOn o164,000 sq. ft. building construction.

                                     JUNE 2010: Army Central Command G7 non"toncurs with request to cancel 64,000 sq. ft. building construction.

                                     JULY 2010: President approves FYlO Supplemental Appropnauons.




                              2011

                                     FEBRUARY 2011: Contract awarded for consbuction of 64,000 sq, ft. building building.
                                     · Original estimated cost $13.5M
                                     · Contract ceiling $24M




                              2012




                                     OCTOBER/ NOVEMBER 2012:
                                     • OctOber 15: Ma~ne Expedltlonary Force-Forward accepts 64,000 sq. ft. bulldlng as constructed.
                                     • November 11: 64,000 sq. ft. building found to be not ready for occupancy and further construcUon ISsues arosa
                                     DECEMBER2012: Contract modifications issued
                              2013




                                     APRIL 2013:
                                     • April 9: Marine Expeditionary Force-Forward Commander conveys intentions to not move into ()4,000 sq. ft. building buildin~
                                       • Fighting season is about to begin
                                       · Building Is not ready
                                     • April 25: 64,000 sq ft. building listed as 981b complete.
                                       ·Total cost estimate risen to S25.08M

                                     MAY 2013: First AR 15·6 investigation recommends CCilVerting the 64,000 sq. ft. building to a gymnasium and movie theatre



                                     NOVEMBER 2013: SIGAR received second AR 15-6 Investigation, signed by Maj. Gen. lllchardson. The report recommends
                                     that the Commander, U.S. Forces-Afghanistan consider spending additional funds to complete the building and to occupy and
                                     use the building for its original purpose.
                         DEPARTMENT OF DEFENSE
                        OFFICE OF GENERAL COUNSEL
                             1600 DEFENSE PENTAGON
                            WASHINGTON , DC 20301 · 1600

                                                                          IJ.AR 17 2014

MEMORANDUM FOR SECRETARY OF THE ARMY
               SECRETARY OF THE NAVY
               CHAIRMAN OF THE JOINT CHIEFS OF STAFF
               COMMANDER, CENTRAL COMMAND VIA CHAIRMAN OF THE
                  JOINT CHIEFS OF STAFF
               UNDER SECRETARY OF DEFENSE (ACQUISITION,
                  TECHNOLOGY AND LOGISTICS)
               UNDER SECRETARY OF DEFENSE (POLICY)
               INSPECTOR GENERAL OF THE DEPARTMENT OF DEFENSE

SUBJECT: Preservation of Records Related to the Command and Control Facility (64k
         building) at Camp Leatherneck, Afghanistan

        Addressees are directed to preserve records (1) relating to the planning and construction
of the 64k building at Camp Leatherneck, Afghanistan; and (2) concerning two Army Regulation
15-6 (AR 15-6) investigations regarding the 64k building. AR 15-6-related records that should
be preserved include relevant emails to or from the following individuals:

       LTG (USA) Peter M. Vangiel
       MG (USA) James M. Richardson
       COL (USA) Arie McSherry
       COL (USA) Norman F. Allen
       COL (USA) Joseph Sullivan
       COL (USA) Brett Barraclough
       Lt Col (USAF) James Palmer
       MAJ (USA) Heidi Weaver

       Records at issue are dated from January 1, 2009, through November 27, 2013.

         Addressees are directed to make inquiries and identify employees (both current and
former service members and DoD direct hire personnel) who could reasonably be expected to
have these potentially relevant categories of materials, and explain to them the obligation to
ensure that no potentially relevant material is destroyed (which includes preserving information
that is stored on their personal computers or email accounts). Please provide these personnel
with a copy of this document. If your searches or inquiries indicate other personnel may have
relevant information, please repeat this process with the additional personnel.

       Please also coordinate with your information technology personnel to ensure relevant
materials are not destroyed during the pendency of this investigation. This may include
overriding normal document destruction policies.
       Please contact Bill Hudson                                    ) With any questions you may
have. I appreciate your assistance in this matter.




                                                     Robert S. Taylor
                                                     Principal Deputy General Counsel




                                                 2
